U.S. Department of the Interior
Office of Inspector General




           SPECIAL USE FEES,
         NATIONAL PARK SERVICE

             REPORT NO. 96-I-49
               OCTOBER 1995
             United States Department of the Interior
                            OFFICE OF INSPECTOR GENERAL
                                   Washington, D.C. 20240




MEMORANDUM

TO:

FROM:


SUBJECT SUMMARY: Final Audit Report for Your Information - “Special Use
                 Fees, National Park Service” (No. 96-I-49)

Attached for your information is a copy of the subject final audit report.

The National Park Service did not implement its authority to collect and retain fees
for special park uses in a consistent manner. As a result, there were differences
among the parks regarding: (1) the types of activities that were subject to a fee;
(2) the bases for determining the amount of the fee; and (3) the use of fee revenues.
In addition, we identified deficiencies in the controls for collecting and/or accounting
for fee revenues at 4 of the 13 parks we reviewed and found that 11 of the parks
carried over revenues totaling $331,864 into fiscal year 1995. According to its
records, the Park Service carried over special use funds totaling $514,456 from all
parks into fiscal year 1995. The Park Service agreed to expedite the revision to
NPS-53, “Special Park Uses,” to address the changes created by the Appropriations
Acts of 1991, 1992, 1993, and 1994.

If you have any questions concerning this matter, please contact me at
(202) 208-5745.



Attachment
                                                                   E-IN-NPS-O04-95


           United States Department of the Interior
                           OFFICE OF INSPECTOR GENERAL
                                  Headquarters Audits
                                 1550 Wilson Boulevard
                                        Suite 401
                                  Arlington, VA 22209




Memorandum




           Acting Assistant Inspector General for Audits

Subject:   Final Audit Report on Special Use Fees, National Park Service (No. 96-I-49)

This report presents the results of our audit of special use fees in the National Park
Service. The objective of the audit was to determine whether the Park Service
established, collected, and expended special use fees in a consistent manner and in
accordance with applicable laws, regulations, and guidance. This audit was initiated
at the request of the Chairman of the U.S. House of Representatives Subcommittee
on National Parks, Forests and Lands.

We concluded that the Park Service did not implement its authority to collect and
retain fees for special park uses in a consistent manner. This occurred because the
Park Service has not completed its efforts to revise the existing guidance (NPS-53,
“Special Park Uses”) to address the changes created by the Appropriations Acts of
1991, 1992, 1993, and 1994. As a result, there were inconsistencies among the parks
regarding: (1) the types of activities that were subject to a fee; (2) the bases for
determining the amount of the fee; and (3) the use of fee revenues. In addition, we
identified deficiencies in the controls for collecting and/or accounting for fee
revenues at 4 of the 13 parks we reviewed and found that 11 of the parks carried
over revenues totaling $331,864 into fiscal year 1995, although the authority to carry
over funds was not specifically addressed in the Act. According to Accounting
Operations Division records, the Park Service carried over special use funds totaling
$514,456 from all parks into fiscal year 1995. We recommended that the Director,
National Park Service, expedite the revision of NPS-53 to address these issues. In
that regard, we are available to consult with the Park Service on the revisions to
NPS-53.

Based on the Park Service’s September 28, 1995, response (see Appendix 5) to the
draft report, we consider the recommendation resolved but not implemented.
Accordingly, the unimplemented recommendation will be referred to the Assistant
Secretary for Policy, Management and Budget for tracking of implementation, and
no further response to the Office of Inspector General is required (see Appendix 6).
The Park Service also provided additional comments on the draft report, which were
incorporated into the report as appropriate.

The legislation, as amended, creating the Office of Inspector General requires
semiannual reporting to the Congress on all audit reports issued, actions taken to
implement audit recommendations, and identification of each significant
recommendation on which corrective action has not been taken.

We appreciate the assistance of officials from the National Park Service in the
conduct of our audit.
                                        CONTENTS

                                                                                               Page

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

    BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
    OBJECTIVE AND SCOPE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
    PRIOR AUDIT COVERAGE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

FINDING AND RECOMMENDATION . . . . . . . . . . . . . . . . . . . . . . . . . 4

    SPECIAL USE FEES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

APPENDICES

    1.     SITES VISITED . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   15
    2.     MAJOR SPECIAL USE PERMITS AND REVENUES FOR
              FISCAL YEAR 1994 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .         16
    3.     SELECTED ACTIVITIES REQUIRING PERMITS
              AND FEES FOR FISCAL YEAR 1994 . . . . . . . . . . . . . . . . .                      18
    4.     SPECIAL USE PERMIT REVENUES AND
              EXPENDITURES FOR FISCAL YEAR 1994 . . . . . . . . . . . .                            19
    5’.    NATIONAL PARK SERVICE RESPONSE . . . . . . . . . . . . . . .                            20
    6.     STATUS OF AUDIT REPORT RECOMMENDATION . . . . . .                                       26
                                     INTRODUCTION

BACKGROUND

The National Park Service guidelines (NPS-53, “Special Park Uses”), which were
issued in 1986 and were being revised as of July 1995, define special park use as “any
activity which is proposed for, or exists within, a National Park System area which
requires some type of written permission from a National Park Service official.”
However, according to NPS-53, permits and fees are not always mandatory for such
activities. For example, one park unit may consider an athletic event a special use
that requires a special use permit and a fee, whereas another park unit may consider
the same type of event a normal activity that requires a written activity permit but
does not require a special use permit or a fee. In March 1995, the Park Service’s
Nationwide Special Use Coordinator, appointed in September 1994, conducted an
informal survey of the Park Service’s individual park units to identify special use
activities and related fees. Of the 367 individual park units, 242 park units
responded that they had issued 146,832 special use permits during calendar year
1994, which covered 92 special use activities. The most common special use activities
included backcountry camping, athletic events, picnics, fishing, biking, weddings,
                                    l
agriculture, residential leasebacks, canoeing, rafting, and commercial filming.

The Park Service’s Appropriations Act of 1994, Public Law 103-138, gave the Park
Service permanent authority to recover and retain all costs associated with special
use activities. (The Park Service will address the Appropriations Act of 1994 in its
revision to NPS-53). The Appropriations Acts for fiscal years 1991, 1992, and 1993
had given only l-year authority to recover and retain all costs associated with special
use permits, and Appropriations Acts prior to fiscal year 1991 had given l-year
                                                    2
authority to recover and retain unbudgeted costs. The Park Service’s Accounting
Operations Division reported that during fiscal year 1994, park units recorded
$3,787,347 in special use fees; spent or obligated $3,272,891; and carried over
$514,456 for future use. Two special accounts were used to record income and
expenses associated with special use activities: Program Work Element 456 for
budgeted activities and Program Work Element 457 for unbudgeted activities.




1
 A residential leaseback is a transaction involving the sale of property, with the purchased property
then being leased to a private individual.
2
Unbudgeted costs are the costs of unexpected activities (including any applicable overhead)
associated with the extra services necessary to support the permittee, such as overtime pay, supplies,
materials, and utility costs. Budgeted costs are the costs of planned activities (including any applicable
overhead) associated with extra services necessary to support the permittee, such as regular salaries
and fringe benefits.
OBJECTIVE AND SCOPE

The objective of the audit was to determine whether the Park Service established,
collected, accounted for, and expended special use fees in a consistent manner and
in accordance with applicable laws, regulations, and guidance. The audit was
initiated in response to a February 13, 1995, request from the Chairman of the
U.S. House of Representatives Subcommittee on National Parks, Forests and Lands
to evaluate the Park Service’s implementation of its authority under the fiscal year
1994 Appropriations Act to recover costs for special use activities. The
Subcommittee specifically requested that we review how this authority was
implemented at five parks (Grand Canyon National Park, Yellowstone National
Park, Canyonlands National Park, Santa Monica Mountains National Recreation
Area, and Yosemite National Park); the basis used at each park for establishing
permit fee levels; how each park accounted for the revenues generated; and how the
revenues were spent, including whether they were spent in support of the purposes
for which they were collected. We expanded the scope of our review to include eight
additional parks, which we selected based on the reported revenues for 1994. The
13 parks in our review reported a total of $2,022,535 in special use fees for fiscal
year 1994 (see Appendix 4). The revenues from these parks accounted for 53
percent of all special use permit revenues ($3,787,347) reported by the Park Service’s
Accounting Operations Division for that fiscal year.

Our audit was made, as applicable, in accordance with the “Government Auditing
Standards,” issued by the Comptroller General of the United States. Accordingly,
we included such tests of records and other auditing procedures that were considered
necessary under the circumstances. Our audit was conducted from February through
August 1995 and included a review of financial records and interviews with Park
Service personnel at the Division of Ranger Activities in Washington, D. C.; the
Accounting Operations Division in Reston, Virginia; the Office of the Special Use
Coordinator at Colonial National Park in Yorktown, Virginia; and 13 national parks,
seashores, recreation areas, and monuments (see Appendix 1). Our audit generally
covered activities that occurred during fiscal year 1994.

As part of our review, we evaluated the Park Service’s internal controls over the
collection and expenditure of special use fees. We found internal control deficiencies
in the areas of policy and guidance for determining activities subject to fees,
establishing the fees, accounting for and collecting the fees, and using fee revenues.
Our recommendation, if implemented, should improve the controls in these areas.

We also reviewed the Secretary’s Annual Statement and Report to the President and
the Congress for fiscal year 1994, as required by the Federal Managers’ Financial
Integrity Act of 1982, and determined that there were no reported weaknesses that
were within the objective and scope of our audit.




                                          2
PRIOR AUDIT COVERAGE

During the past 5 years, the Office of Inspector General has issued one audit report
on selected special use fees. The March 1993 report “Recreation Fee Charges and
Collections, National Park Service” (No. 93-I-793) stated that restrictions in the Land
and Water Conservation Fund Act of 1965, Public Law 88-578, codified at 16 U.S.C.
4601-4, prevented the Park Service from collecting about $8.8 million of user fees for
certain types of camping, hunting, fishing, and boat launching activities. The report
recommended that the Director, National Park Service, seek legislative relief from
these restrictions. In its response to the report, the Park Service agreed to consider
including, in future requests for legislative changes, authority to collect user fees for
backcountry camping and boat launching from park boat ramps but not for hunting
and fishing. During our current review, we found that the Park Service was
collecting and retaining special use permit fees for the issuance of backcountry
camping permits and related reservations and fishing permits under the authority of
the Appropriations Act of 1994.
                  FINDING AND RECOMMENDATION

SPECIAL USE FEES

The National Park Service did not implement its authority to collect and retain fees
for special use activities in a consistent manner. The Park Service’s Appropriations
Act of 1994 provided the Park Service with permanent authority “to recover and
retain all costs of providing necessary services associated with special use permits,
such reimbursement to be credited to the appropriation current at that time.”
However, the Park Service has not completed its efforts to revise the existing
guidance to address the changes created by the Appropriations Acts of 1991, 1992,
1993, and 1994. As a result, there were inconsistencies among the parks regarding
the types of activities on which special use fees were assessed; the methods used in
establishing the fees; and the use of fee revenues. Thus, there was no assurance that
the appropriate amount of fees was being collected. In addition, 4 of the 13 parks
we reviewed had not established adequate controls to ensure proper accountability
of fee revenues, and 11 of the parks carried over special use revenues totaling
                                                    3
$331,864 from fiscal year 1994 to fiscal year 1995.

The 1986 Park Service guidelines, NPS-53, provide general guidance on issuing
special use permits and establishing related fees. However, NPS-53 does not provide
clear and specific guidance on the types of activities subject to special use fees; the
method for establishing fees, including the types of costs that should be considered;
and the types of activities on which the revenues can be spent. In addition, since
NPS-53 is not current, it does not address the new authorities provided under the
1994 Appropriations Act. Specifically, it does not address the elimination of the
restriction on issuing special use permits for hunting, fishing, and backcountry
camping or the authority to retain and use fee revenues in the park. As a result,
each park we reviewed used its own discretion in implementing the provisions of the
Appropriations Act, which resulted in the deficiencies and incosistencies identified
in this report.

Determining Activities Subject to Fees

We found that the 13 parks reviewed had implemented changes in their special use
activity procedures to incorporate the provisions provided under the Park Service’s
Appropriations Acts for 1991 and subsequent years to collect and retain fees. Five
parks had instituted special use permit fees for their major activities; seven parks had
converted existing fee activities to special use fee activities so that they could retain
the revenues; and one park had used a combination of both methods (see
Appendix 2). For example, prior to 1991, Yellowstone did not have the authority to
collect fees for fishing activities, and Canyonlands did not have authority to collect


3
The Office of the Solicitor is currently preparing a legal opinion that will address how revenues can
be spent and whether they can be carried over from one fiscal year to another.

                                                 4
fees for the issuance of backcountry camping permits and related reservations. The
collection of fees for these activities was prohibited by the Land and Water
Conservation Fund Act of 1965. Both of these parks started collecting special use
permit fees for the specified activities when the authority to do so was granted by the
provisions of the Appropriations Acts for 1991 through 1994. Similarly, Assateague
Island National Seashore had been collecting money from its off-road vehicle permits
under prior existing authority. However, Assateague converted these permits to
“special use” permits under the authority provided by the 1991 Appropriations Act
in order to retain the funds to support its operations.

Overall, our review identified inconsistencies among the 13 parks in determining
which activities were subject to special use fees (see Appendix 3). For example:

    - Nine parks issued permits for weddings, but only 7 of the 9 parks charged a fee
for the permits, which totaled $6,878 in fiscal year 1994.

    - Six parks issued permits for backcountry camping, but only Canyonlands
collected fees for reservations and issuance of the permits, which totaled $63,530 in
fiscal year 1994.

    - Six parks issued permits for group picnics, but only five of the six parks
collected fees for the picnics, which totaled $10,058 in fiscal year 1994.

    - Gateway National Recreation Area issued 3,621 parking permits for fishing that
allowed access to off-road and other areas where public access is normally restricted.
It did not collect any fees for this special use. In similar circumstances, Assateague
Island charged a $40 annual fee for off-road access and collected $209,440 in fiscal
year 1994.

Establishing Fees

The parks were not consistent in the methods they used for establishing special use
fees, and the fees were not always set at the appropriate level or supported by
adequate cost data. General cost recovery guidance, such as that contained in Office
of Management and Budget Circular A-25, “User Charges,” requires fees to be
established based on cost or market data and provides for the recovery of both direct
and indirect costs. However, NPS-53 does not provide park managers with sufficient
guidance on when to use the cost or market approach in establishing the fees, the
types of costs to include in the calculation of fees, or the documentation necessary
to support the fee determination. The 13 parks we reviewed established rates as
follows: 5 parks (Grand Canyon, Santa Monica Mountains, Yosemite, Statue of
Liberty National Monument, and Zion National Park) used cost data; 3 parks
(Assateague Island, Gateway, and Yellowstone) used comparability studies; 3 parks
(Delaware Water Gap National Recreation Area, Lake Mead National Recreation
Area, and Point Reyes National Seashore) used appraisals; and 2 parks (Canyonlands
and Golden Gate National Recreation Area) used the “collective judgment and


                                           5
experience” of their personnel to establish the fees (see Appendix 2). Examples of
deficiencies and inconsistencies in the establishment of rates, which we believe were
caused by insufficient guidance, are as follows:

     - Grand Canyon, Santa Monica Mountains, Yosemite, Statue of Liberty, and
Zion charged fees that were designed to recover the direct costs of personal services,
utilities, waste management, administrative activities, and management reviews that
were associated with the special uses. However, the parks did not have adequate
documentation to support the fee computations and did not include overhead costs
in the fees.

    - Golden Gate established a basic fee of $25 for most permits except commercial
filming. This amount was based on management estimates and not on the actual
costs of providing the services or on comparable values.

   - All 13 parks issued permits for commercial filming, but the fees varied among
the parks. Golden Gate collected daily location use fees and accepted donations
ranging from $50 to $6,600 based on the specific filming location; three parks
charged a daily monitoring fee of $300; six parks charged actual monitoring costs;
and three parks did not charge a fee.

    - Delaware Water Gap used appraisals to assist in establishing fees for 18
residential leasebacks. Although the appraised value of these leasebacks totaled
$104,100, the fees were set at less than the appraised values for each of the
leasebacks, resulting in revenues totaling only $76,831. There was no documentation
to support the basis for the lower annual fees.

    - Assateague Island considered the annual rates charged by the States of
Delaware ($50) and New Jersey ($100) in establishing its off-road vehicle permit fee
of $40. Yellowstone performed a comparability study of the fishing license fees
charged by surrounding states before it established its fishing permit fees. However,
Yellowstone collected $5 for a 7-day permit and $10 for an annual permit, whereas
the comparable ranged from $13 to $24 for an annual fishing license. Neither park
had documentation to support the basis for setting the fees at rates lower than those
at comparable locations.

    - In 1990, Lake Mead used a 1986 appraisal to establish fees ranging from $540
to $765 per year for its cabin site leases. When the leases were renewed in 1995, the
rates were expected to increase because comparable property values had increased.
However, the rates were not increased because Lake Mead did not receive any
responses to a contract prospectus to conduct new appraisals.




                                          6
Collecting and Accounting For Fees

Nine of the 13 parks in our review had implemented adequate internal control
procedures for collecting and accounting for revenues generated from special use
permits. Four parks (Assateague, Yellowstone, Grand Canyon, and Canyonlands)
used prenumbered or sequentially numbered permits that were sold at the visitor
centers and/or entrance stations and deposited the receipts into separate accounts
established for special use fee revenues. Five parks (Delaware Water Gap, Santa
Monica Mountains, Yosemite, Point Reyes, and Lake Mead) issued bills for
collection to recover the special use fees and likewise established separate accounts
for the fees. However, the remaining four parks (Golden Gate, Gateway, Statue of
Liberty, and Zion) did not establish sufficient controls to ensure collection and/or
proper accountability of the revenues generated from special use permits:

    - Golden Gate did not have adequate controls to ensure that permit fees were
actually collected and deposited into the proper account. Deposit tickets usually
included funds collected for several different accounts, and we could not determine
whether the funds were deposited into the proper account because the permit
number was not recorded by Golden Gate on the copy of the permittee’s check and
the permit files did not identify the deposit ticket. We also found that: (1) special
use permit fees were not consistently charged or collected (for 19 of the 97 filming
permits, the fees were either waived [12 at a loss of $1,800] or the permittee paid
less than the standard $150 fee [5 at a loss of $450] or more than the standard fee
[2 that overpaid by $300]); (2) specified fees were not always collected for permits
issued for weddings, picnics, and athletic events (only 7 of the 35 wedding permits
reviewed resulted in fees that met the $125 minimum fee established by Golden
Gate, resulting in a loss of $2,450); and (3) permit fees were not always collected
prior to the event or we could not determine whether the fees were collected at all
(fees for 54 of the 97 film permits reviewed were either collected after the event
occurred [32 permits totaling $4,400] or there was no cross reference or copy of the
check to determine whether a fee was actually collected [22 permits totaling $2,975]).

In addition, Golden Gate was not recording all special use fees into the special use
fee accounts. Instead, location use fees for filming and fees for other uses which
totaled $103,000 for the period October 1, 1994, through May 17, 1995, that were
based on the location and/or the number of participants were recorded in a
“donations” account. Unobligated funds in such an account can be carried forward
to the following fiscal year. Golden Gate developed standard language for letters
for permittee donations. The letters for filming stated:

   I’d like to extend my thanks for the opportunity to conduct commercial
   filming within the Golden Gate National Recreation Area (GGNRA). As
   [vendor name] appreciates that the National Park Service seeks to maintain
   the Park’s natural and urban settings, restore fragile wilderness habitats, and
   create site improvements that offer visitors new opportunities to explore and
   enjoy the Park, we are pleased to present the National Park Service with a


                                          7
    [amount of] donation, which is to be put toward GGNRA operations and
    general maintenance.

The vendor’s name and the agreed upon “donation” amount were added by the park
and sent to the permittee after completion of the filming activity.

    - Gateway did not implement adequate controls to ensure that all special use
fees were paid. We found that Gateway did not always place the permit number on
the copies of the checks received for special events. As a result, we were unable to
reconcile receipts to the permits or deposit tickets. In addition, advance payments
were not always received and performance bonds were not required to ensure
payment to Gateway. As a result, Gateway officials have been required to pursue
payments, and permitters have defaulted on bills owed to Gateway. In one instance,
although a permittee was allowed to charge admission fees for a festival, a
performance bond was not required, and the permittee did not pay the $3,087 owed
to Gateway. The bill was sent to a collection agent after the issuance of a third
delinquency notice.

Gateway also did not ensure that sponsors of special events paid the appropriate
fees. A permit issued for a large festival provided for Gateway to receive 50 percent
of the revenues generated from a $5 parking fee. On the last day of the 5-day event,
the permittee sent a check for $13,495 (apparently based on 5,398 cars) for
Gateway’s share of the parking revenues. However, the permittee did not provide
any documentation or explanation as required by the permit to demonstrate how the
amount was calculated, nor did Gateway officials maintain any records (such as
attendance or revenue totals) to ensure proper payment. According to Gateway’s
Superintendent, some of these festivals have had an attendance of more than 100,000
people over a period of 5 days.

    - Statue of Liberty did not record the permit number on the copies of the checks
remitted by the permittee. Therefore, receipts could not be reconciled to the permits
issued or to deposits. In addition, we found that Statue of Liberty was not always
complying with the Treasury Manual, which requires that receipts be deposited once
a month or when they total $5,000, whichever comes first. For example, a $26,969
deposit made on June 9, 1994, included an $8,000 check held for 3 days; a $6,000
check held for 14 days; and a $10,000 check held for 15 days.
                               4
    - At Zion, tunnel escort fees are collected at its entrance stations, and a cash
register receipt is issued for verification prior to passage through the tunnel. The
amounts recorded by the cash registers are traceable to the deposit and remittance
reports, and the revenues are recorded into the appropriate accounts. However,
without prenumbered receipts, we could not be assured that all the appropriate fees
were collected.


4
0versized vehicles that pass through a narrow tunnel in Zion are required to be guided by Zion
personnel for safety reasons.

                                              8
Expending Fee Revenues

The Subcommittee requested that we determine how special use revenues were
spent, including whether they were spent in support of the purposes for which they
were collected. We identified inconsistencies among the parks in how the revenues
were spent and found that 11 of the 13 parks reviewed carried over unobligated
revenues totaling $331,864 to fiscal year 1995.

Of the 13 parks, 6 parks (Grand Canyon, Canyonlands, Gateway, Golden Gate, Point
Reyes, and Yosemite) spent special use fee receipts to support the activity that
generated the revenue. Of the remaining seven parks, Santa Monica Mountains
spent fee revenues from filming on any special use activity, particularly at Paramount
and Circle X Ranches; Yellowstone and Delaware Water Gap indicated that they
generally spent special use fee receipts to support the activity that generated the
revenue, although our review of the parks’ records indicated that some charges were
not related to the special use activity; Zion, Assateague Island, and Statue of Liberty
spent the revenues for general park purposes in addition to the special use activity;
and Lake Mead had not spent any of the revenues collected from special use fees
at the time of our review. During fiscal year 1994, the 13 parks spent fee revenues
as follows:

    - Canyonlands’ records indicate that it spent $47,059 of the $63,530 collected
from the sale of backcountry permits in support of the purposes for which the fees
were established and carried over the remaining $16,471 for use during fiscal year
1995. The expenditures consisted of: (1) $26,591 in salary costs for two seasonal
reservation system rangers; (2) $11,464 for backcountry office supplies ($1,139),
service on cash registers ($125), and contract services to pump backcountry toilets
($1O,2OO); (3) $8,814 for deposit safes ($389), computer support equipment ($439),
and pumping equipment for backcountry toilets ($7,986); and (4) $190 in travel costs
associated with fee collection training.

    - Grand Canyon spent $50,108, which included $10,148 in carryover funds from
fiscal year 1993 as well as a large portion of the $44,175 collected during fiscal year
1994, in support of the river use activity for which the fees were collected. Grand
Canyon carried over $4,215 for use during fiscal year 1995. The expenditures
included $24,902 for the salary costs of a full-time River Waiting List Clerk ($23,766)
and the partial salaries of a river use coordinator ($815), a boat inspector ($284), and
two part-time clerks ($37). Grand Canyon also spent: (1) $13,886 for equipment
such as outboard motors, computers, and printers; (2) $11,087 for mailings, data base
management, and other supplies; and (3) $233 for travel and training costs associated
with the waiting list data base.

    - Santa Monica Mountains used $200,695 of the $228,412 collected from filming
activities in support of special use activities and carried over $27,717 for use during
fiscal year 1995. The expenditures included $132,195 in personnel costs for: a
full-time permit coordinator and three seasonal support staff ($108,881);


                                           9
maintenance personnel ($17,275); and administrative support ($6,039). Santa Monica
Mountains also spent $68,500 in services/purchases for: administrative supplies and
services, including data processing and communication charges ($22,466); repairs and
maintenance ($18,805); equipment rentals ($7,824); utilities, trash removal, and
groundskeeping ($ 11,089); and other expenses related to various special use activities
($8,316).

    - Yosemite records indicate that it spent $54,745 of the $56,500 collected for
permits issued to commercial bus operators in support of the special use activity and
carried over $1,755 to fiscal year 1995. Expenditures consisted of $53,324 in salary
costs for a ranger and clerical staff to support permit issuance, revenue collections,
and bus inspections. The Park spent the remaining $1,421 to purchase office
supplies, including a desk chair and communication equipment, and bus inspection
supplies in direct support of the special use permits office.

    - Gateway records show that it spent $93,143 of the $106,779 collected in
revenues from building use fees, special event activities, and a cost-sharing agreement
in support of these activities and carried over $13,636 for use during fiscal year 1995.
Expenditures included: the salaries of the special use permit coordinators and
overtime incurred by protection and maintenance staff during the special events
($53,348); the rental of trash dumpsters ($28,038) and portable toilets ($7,022); and
the purchase of miscellaneous door locks and maintenance supplies ($4,735).

    - Golden Gate records indicate that it spent $56,662 of the $66,929 collected from
special use permits to support filming and other special events and carried over
$10,267 for use during fiscal year 1995. The expenditures included $15,973 in
overtime costs incurred by rangers and Park Police employees during the filming or
other special event activity. Golden Gate also spent $15,520 for computers
($1O,33O), printers ($4,012), and software ($1,178) for the special permit use group.
Other expenditures were: $5,108 for FTS services; $11,860 for General Services
Administration rental costs for a passenger vehicle and a truck used by the special
permit use group; $3,640 for materials and supplies needed to construct barricades
for special event control; $3,000 for a lifeguard station; $977 for the rental of
portable toilets; and $584 for miscellaneous materials and supplies for the group.

    - Point Reyes records indicate that it spent $53,611 of the $192,969 collected from
the grazing, restoration of ranchlands, and other special uses during fiscal year 1994
to support these activities. The $139,358 balance was deposited throughout the year
into a general Treasury account. It was Point Reyes policy to retain only the amount
of funds necessary to administer the special use permits. Point Reyes records
indicate that it spent $59,411 ($5,800 more than the amount retained) for: the salary
costs of protection and resource management employees ($49,298); equipment rental
($3,558); General Services Administration truck rental ($1,715); phone and modem
installation ($1,678); office supplies ($1,051); and miscellaneous materials and
supplies ($2,111). The additional $5,800 was from park operating funds.



                                           10
    - Yellowstone records indicate that it spent $325,812 of the $392,247 collected
from fishing permits to support fishing-related and general park activities and carried
over $66,435 to fiscal year 1995. While expenditures for travel, equipment, and other
costs pertained exclusively to fishing-related activities, charges for salaries were for
employees whose responsibilities included fishing, as well as other park-related
activities. For example, Yellowstone hired additional seasonal rangers at a cost of
$196,157 to monitor over 2,000 miles of fishable streams for permit violations. The
Interpretation Division spent $41,601 for salaries of five new seasonal employees
(one for each visitor center), who sold fishing permits and explained the Park’s
fishing regulations. These employees also performed duties not related to the fishing
activities. Conversely, other Park employees who were not paid out of the special
use permit revenue account also monitored fishing violations and sold fishing
permits.

    - Delaware Water Gap records show that it spent $62,225 of the $76,831 in
revenues collected from residential leaseback fees in support of that activity or other
park activities and carried over $14,606 for use during fiscal year 1995. The
expenditures consisted of $55,584 for the salary of the Management Assistant
($42,418) and for part of the salaries for office assistants ($13,166). The
Management Assistant was responsible not only for conducting the leaseback
program but also for implementing Servicewide, regional, and park regulations and
policies pertaining to the management of historic leases; concession operations; and
other special park uses. The remaining $6,641 was spent on a computer for the
leaseback program office ($3,158) and for the moving costs of an employee ($3,483).

      Zion spent $279,744, which consisted of $11,143 in carryover funds from fiscal
year 1993 and the $268,601 of fiscal year 1994 revenues in support of the tunnel
escort activity as well as general park activities. For example, Zion used $258,818
to pay part of the salaries of employees who served both as tunnel escorts and
collectors of entrance and campground fees at Zion. Because of this dual
responsibility, the payroll and local travel expenses of the tunnel escorts and the
entrance fee activities were not accounted for separately. Also, most of the
equipment ($2,080) and other charges ($9,873) against these revenues benefited
general park activities rather than solely the tunnel program. For example, the
$9,873 in other charges included $2,987 to repair two vehicles that were used for
general patrol duties and $1,284 for entrance station fee collection supplies and
materials.

    - Assateague Island spent $158,533 of the $209,440 in revenues generated from
off-road vehicle permits on general park activities. The $50,907 that remained was
carried over to fiscal year 1995. The expenditures included $28,261 for materials,
supplies, and equipment to construct an addition to the existing visitor center. The
new addition serves as the audio-visual center and is not directly associated with the
off-road vehicle permit activity. Assateague Island also charged the entire salary
costs for the Chief of Maintenance ($42,032) for the last 9 months of the year and
the Chief Ranger ($32,727) for the last 7 months of the year to the special use fee
account. A substantial portion of these individuals’ time was spent on activities other
than off-road vehicle activities during these periods.

    - Statue of Liberty spent $134,806 of the $139,425 in revenues generated from
the special events for general park expenses as well as the special use activity. The
$4,619 balance was carried over to fiscal year 1995. Statue of Liberty spent $63,644
in direct support of the special events: $53,522 in overtime costs for park personnel;
$3,801 for communication equipment; $2,709 for a computer for the special events
coordinator; and $3,612 in maintenance and other costs. The remaining $71,162 was
used to pay for expenses that benefited all park users, not just special event
permitters. Statue of Liberty charged the special use fee account to pay the annual
rental cost ($19,200) for a private bridge that was used by Statue of Liberty and
concession personnel and not by special event permitters. Statue of Liberty also
used special permit revenues to: (1) purchase a color printer ($10,577); (2) rent
cellular telephones ($3,500); (3) purchase security devices ($1,486); (4) purchase
visitor passes ($1,000); and (5) pay for radio repairs ($399). In addition, Statue of
Liberty charged the special use fee account $35,000 for utilities for special events,
which represented approximately 5 percent of the utility costs for the year. The
allocation was not based on meter readings or supported by any other
documentation. According to Statue of Liberty officials, the utility charges were
based on the estimated percentage of time the park was used for special events.

    - Lake Mead did not spend any of the $80,325 in revenue collected from its land
lease program during fiscal year 1994. At the time of our review, Lake Mead had
not spent any of the $150,000 in revenues deposited into its special use account since
it converted its land lease program to a special use activity in 1992. Lake Mead did
not spend the revenue because the Park Service’s Western Regional Office had not
considered the leasing activity a special use. During fiscal year 1995, the issue was
resolved, and the Regional Office has authorized Lake Mead to use the fees.

Finally, we found that 11 of the 13 parks reviewed carried over special use revenues
totaling $331,864 into fiscal year 1995. Point Reyes used only the amount of
revenues needed to recover its costs for managing the agriculture leases and remitted
excess revenues to the Treasury during the year. Zion spent all the revenues from
fiscal year 1994. According to Accounting Operations Division records, the Park
Service carried over special use funds totaling $514,456 from all parks into fiscal year
1995.

The Park Service’s Appropriations Act of 1994 states: “Notwithstanding any other
provision of law, the National Park Service may hereafter recover all costs of
providing necessary services associated with special use permits, such reimbursements
to be credited to the appropriation current at that time.” The Park Service has
interpreted this authority to allow the parks to use special use permit revenues to
support any park operations and to carry over unobligated funds to the next fiscal
year. Special use permit revenues were carried over by depositing the revenues into
the “Construction” appropriation (Business and Clearing), which is a “no year”
appropriation. The Office of the Solicitor, Division of Conservation and Wildlife,

                                           12
is preparing a legal opinion that will address how the revenues can be spent and
whether they should be considered no year funds.

Recommendation

We recommend that the Director, National Park Service, direct appropriate officials
to expedite the revision of NPS-53, “Special Park Uses,” subject to the advice
provided by the Solicitor’s office regarding the use and retention of special use
permit revenues. In order to ensure consistency among the parks and to provide for
the proper assessment, collection, accounting for, and disposition of fees, the revised
guidelines should provide detailed instructions for:

   - Identifying the types of activities that require special use permits.

    - Establishing special use permit fees, including the types of costs to include in
the fee and the documentation needed to support the fee computation.

   - Establishing adequate internal controls over the collection of and the
accountability for special permit use revenues at the park level.

    - Ensuring that special use fee revenues are accounted for in accordance with
legislative authority.

National Park Service Response

The September 28, 1995, response (see Appendix 5) from the National Park Service
concurred with the recommendation, stating that the draft of NPS-53, “Special Park
Uses,” Release No. 2, addresses and corrects each of the parts of the
recommendation. The response further stated that the revised guidance will “clear
up much of the confusion,” particularly the issue of recovering overhead costs.

The Park Service also stated the following: that our report does not state that the
lack of training needs “immediate emphasis if NPS [National Park Service] is to
achieve effective compliance” with the provisions of NPS-53 and that the report did
not discuss the issue of including training as an overhead cost element; that the use
of the word “revenues” in our report implies “profit” and that the Park Service was
referring to “cost recovery, nothing more”; and that funds deposited into the special
donation account at Golden Gate were “above and beyond” permit fees collected for
events and films.

Office of Inspector General Comments

Based on the Park Service’s response, we consider the recommendation resolved but
not implemented (see Appendix 6).
Regarding training, we agree that training is needed, particularly at the park level,
and that such training should be provided once the revised NPS-53 has been issued.
In addition, our audit did not address the types of costs to be included in the
overhead accounts, and we did not agree at the exit conference to address the issue
of “including training as an overhead cost element.”

Regarding the term “revenues,” we used this term because it was used by the Park
Service’s Accounting Operations Division in accounting for the amount of special use
fees collected.

Regarding the donations account at Golden Gate, we are aware that donations did
not include permit fees or salary recovery for Golden Gate personnel. However, the
donations did include location fees developed by Golden Gate for film permits.
These fees should be recorded in the special use account because they represent fair
market value for use of lands and buildings. The fees were developed by comparing
like fees in the surrounding park areas.




                                          14
                                                                    APPENDIX 1



                               SITES VISITED

   Office and Parks                              Location

Offices

Accounting Operations Division             Reston, Virginia
Division of Ranger Activities              Washington, D.C.
Office of Special Use Coordinator,         Yorktown, Virginia
  Colonial National Park

Parks

Assateague Island National                 Berlin, Maryland
  Seashore
Canyonlands National Park                  Moab, Utah
Delaware Water Gap National                Bushkill, Pennsylvania
  Recreation Area
Gateway National Recreation Area           New York, New York
Golden Gate National Recreation            San Francisco, California
  Area
Grand Canyon National Park                 Grand Canyon, Arizona
Lake Mead National Recreation Area         Boulder City, Nevada
Point Reyes National Seashore              Point Reyes Station, California
Santa Monica Mountains National            Agoura Hills, California
  Recreation Area
Statue of Liberty National Monument        New York, New York
Yellowstone National Park                  Yellowstone National Park, Wyoming
Yosemite National Park                     Yosemite National Park, California
Zion National Park                         Springdale, Utah




                                      15
                         MAJOR SPECIAL USE PERMITS AND REVENUES FOR
                                       FISCAL YEAR 1994



                                                      Established
       Park                   Type of Special Use    Prior to 1991                    Permit Fees and Their Bases
Assateague Island NS         Off-Road Vehicle            Yes         $40 per year; based on comparable

Canyonlands NP               BackCountry Permits          No         $5 per day; based on managers’ estimates
                                                                     $10 for backcountry; based on managers’ estimates
                                                                     $25 for 4-wheel drive campsites; based on managers’ estimates

Delaware Water Gap NRA       Agriculture                 Yes         $65 to 4,924 per acre per year; based on negotiations
                             Residential Leaseback       Yes         $3,060 to $7,446 per year; based on appraisals

Gateway NRA                  Building Rental             Yes         $125 to $1,000 per day; based on comparable

Golden Gate NRA              Filming                     Yes         $150 plus location fee; based on comparable
                             All Other Events            No          $25-$500 per number of participants; based on managers’
                                                                     estimates.

Grand Canyon NP              River Use                   Yes         $50 river fee; based on cost analyses conducted in 1989
                                                                     $25 to be included on waiting list; based on cost analyses
                                                                     conducted in 1989

Lake Mead NRA                Cabin Site Leases           Yes         $540-$765 per year; based on appraisals

Point Reyes NS               Agriculture                 Yes         $2.63-$3.57 per animal unit; based on appraisals

Santa Monica Mountains NRA   Filming                      No         $120-$154,879 per film; based on cost analyses
                                                     Established
       Park                   Type of Special Use   Prior to 1991                    Permit Fees and Their Bases


Statue of Liberty NM         Evening Events              No         $1,000 to $8,000 per night; based on cost estimates

Yellowstone NP               Fishing                     No         $5 for a 7-day permit; based on comparable
                                                                    $10 annually; based on comparable

Yosemite NP                   Commercial Bus             No         $250 per year per company; based on cost estimates

Zion NP                       Tunnel Escort             Yes         $10 per round-trip; based on the prior year’s cost analysis



Legend:

NS     = National Seashore
NP     = National Park
NRA   = National Recreation Area
NM     = National Monument
                     SELECTED ACTIVITIES REQUIRING PERMITS AND FEES
                                  FOR FISCAL YEAR 1994

                                            Weddings            Backcountry       Filming         Picnics
                                         Permit   Fee         Permit    Fee   Permit    Fee   Permit     Fee
                                           Yes          No     Yes     No      Yes     No      Yes      Yes
                                           N/A                 Yes     Yes     Yes     Yes     N/A
                                           Yes          Yes    N/A             Yes     No      N/A
                                           Yes          Yes    N/A             Yes     No      Yes      Yes
                                           Yes          Yes    N/A             Yes     Yes     Yes      Yes
                                           Yes          Yes    Yes      No     Yes     Yes     Yes      Yes
                                           N/A                 N/A             Yes     Yes     N/A
                                           N/A                 N/A             Yes     Yes     Yes      No
                                           Yes          Yes    N/A             Yes     Yes     Yes      Yes
                                           N/A                 N/A             Yes     Yes     N/A
                                           Yes          Yes    Yes      No     Yes     Yes     N/A
                                           Yes          Yes    Yes      No     Yes     Yes     N/A
                                           Yes          No     Yes      No     Yes     Yes     N/A


Legend:

NS     = National Seashore
NP     = National Park
NRA   = National Recreation Area
NM     = National Monument
N/A    = No permit or fee required for this activity.
                                  SPECIAL USE PERMIT REVENUES AND EXPENDITURES
                                                FOR FISCAL YEAR 1994



                                                                            Account 457 (Unbudgeted)                            Total*
                                                                          Revenue Expenditures Carryover           Revenue Expenditures Carryover

                                                                         $73,094        $19,538  $53,556         $209,440       $158,533     $50,907
                                                                           3,079           1,700   1,379           76,009         57,368      17,262
                                                                          59,122         48,126   10,996          135,953        110,351      25,602
                                                                         106,779         93,143   13,636          106,779         93,143      13,636
                                                                          11,480         24,642 (13,162)           66,929         56,662      10,267
                                                                          60,483         53,798    6,685           60,483         53,798       6,685
                                                                          82,375          -       82,375           82,375                     82,375
                                                                          53,611         59,411   (5,800)          53,611         59,411      (5,800)
                                                                         137,488        122,325   15,163          229,422        199,014      30,408
                                                                         139,425        134,806    4,619          139,425        134,806       4,619
                                                                                                                  447,618        355,074      92,544
                                                                          25,926         25,926           0       126,614        124,243       2,371
                                                                           5,006          3,036       1,970       287,877        288,268          (391)
                                                                        $757,868       $586,451 $171,417 $2,022,535           $1,690,671 $331,864

 *The amounts in the total column include all special use fees collected by the parks. However, the report discusses only the major special use
activities for each park, and as such, the amounts may differ.

Legend:

NS      = National Seashore
NP      = National Park
NRA    = National Recreation Area
NM      = National Monument
                                                          APPENDIX 5
                                                           Page 1 of 6




September    28,   1995




MEMORANDUM




Subject:     Comments on Draft Audit Report on Special Use Fees
             E-IN-NPS-O04-95
The following is a summation of the comments prepared by the
National Park Service concerning the Draft Audit Report from your
OffiCe on Special Use Fees, Assignment No. E-IN-NPS-004-95 .

1.   The cover memo, second paragraph:      Per our discussion on
9/18/95, “carry-over” should not be used in the same sentence with
“deficiency” since there is not concurrence that these funds can or
cannot be carried over.    The Department of Interior Solicitor’s
Office is currently researching the topic and an opinion will be
forthcoming. Back in 1988 the Solicitor’s staff counseled the NPS
Budget Division to tell the parks to carry over such monies on the
accounts of parks, which practice the draft audit report disputes.
The NPS will agree to abide by the Solicitor’s determination, or
any future revisions thereof.

Also, during the 9/18/95 exit conference with OIG, it was agreed
that the report would discuss the issue of including training as an
overhead cost element.      We feel that training needs immediate
emphasis if NPS is to achieve effective compliance with published
policy and with future policy revisions which are already in draft.

2.   The following three comments deal almost exclusively with the
recommendations section of the report:

     a.    The last recommendation dealing with unobligated funds
still assumes that the Solicitor's Office will rule this as annual


                                 20
                                                                             APPENDIX 5
                                                                             page 2 of 6




money instead of no-year money.   Should such a ruling take place,
there will not BE any unobligated money at year end. This would be
a great disruption to the program, should such a ruling take place,
because it would suspend the use of monies collected during the
latter portion of the fiscal year.     Also, it would prevent the
accumulation of funds needed for large purchases necessary to
adequately operate the program (e.g. additional patrol craft for
fishing - YELL; off-road vehicles at Assateague; etc.)

     b.    We have a continuing problem with the use of the word
“revenues” in the report. I n o u r m i n d s , this implies ‘ p r o f i t ” a n d
everything we are talking about is cost recovery, nothing more.

     c.   The remainder of the recommendations are mostly correct.
The main point being, that the already circulating draft of NPS-53
(Special Park Uses), Release No. 2, addresses and corrects each of
these points in detail and will clear up much of the confusion,
especially the issue of recovering overhead costs.

     d.    The main problem with the special park uses program is
the lack of training and we are disappointed that this report does
not point that out, since more emphasis on training would help
achieve better compliance with the provisions of NPS-53.      Good
training can even displace an out-of-date guideline. The National
Park Service will be addressing this specific issue through
Servicewide training on the revision to NPS-53.

3.    The Superintendent of Golden Gate National Recreation Area
offered the following comments regarding their portion of the OIG
report:

       a. On the whole, we f i n d t h e i n f o r m a t i o n i n t h e r e p o r t t o b e
accurate statements of the conditions at GOGA in 1994. However, we
w e r e j u s t g e t t i n g started in the program a t t h a t t i m e , and
everything that was found has been or i s b e i n g corrected,
especially        the       administrative deficiencies       noted        regarding
collection and deposit of permit fees.

          Re: page 11, the funds deposited in the donation account
(the most damning point made by the OIG against GOGA - DY) were, in
all cases, above and beyond permit fees that were collected for
events or filming.   The development of standard language for the
letter tendering donations from filming activities was done after
w e had received a number of requests to provide guidance to donors
...   The donations were not a part of negotiated fees or cost
recovery of park expenses.


                                            21
                                                                           APPENDIX 5
                                                                           Page 3 of 6




Attached to these comments are the comments we received directly
from the Superintendent of Canyonlands National Park and the
Assistant Chief Ranger of Lake Mead National Recreation Area.

The National Park Service has always operated under the long held
belief that money collected from special park uses was no-year
money.   This understanding is unanimous throughout the National
Park Service, including the Budget Office. This position goes back
to approximately 1988 when a Solicitor's opinion was released
through WASO stating that money collected under a cost recovery
program is no-year money.    We are attempting to locate written
documentation of this position.

If you have any questions, p l e a s e f e e l f r e e t o c o n t a c t m e a t 2 0 2 -
208-4874.




                                          22
                                                             APPENDIX 5
                                                             Page 4 of 6


F4215

Memorandum

September 27, 1995

To:          Dick S. Young,   WASO Special Use Coordinator
From:        Superintendent, Canyonlands National Park
Subject:     IG Audit Preliminary Findings -- Cost Recovery Program
We have had the opportunity to examine the preliminary report by
the IG covering their audit of cost recovery programs at
Canyonlands National Park. Several small, but important, points
are worth mentioning.
At Canyonlands National Park we do not collect
                                             fees for
backcountry camping and never have. While some may argue the
point, if we did not issue a backcountry permit, visitors could
camp anywhere, anytime and do so without paying a fee! But,
since we feel we must issue a permit to regulate this activity
and protect backcountry resources, we charge a fee under the cost
recovery program for a backcountry reservation and issuance of
the permit. We charge a reservation/permit issuance fee and not
a backcountry camping fee. This was explained repeatedly to the
auditors while here.
Page 4:    Suggest. . . .
"During our current review, we found that the Park service was
collecting and retaining special use fees for fishing permits and
issuance of backcountry camping permits and related reservations
under the authority of the Appropriations Act of 1994."

Page 6: Suggest. . . .
"For example, prior to 1991, Yellowstone did not have the
authority to collect fees for fishing activities, and Canyonlands
did not have authority to collect fees for the issuance
                                                      n
                                                        of
backcountry camping permits and related reservations.
Page 7: Suggest. . . .
" - Six parks issued permits for backcountry camping, but only
Canyonlands collected fees for reservations and issuance of their
permit, which totaled $63,530 in fiscal year 1994.”
These small, but significant, changes will help us differentiate
to others that we were not intending to charge for camping but
for the service provided by our reservation staff and rangers who
took time to explain regulations and issue a proper permit to
ensure a safe and enjoyable visit. This was not a service that
every visitor needed or enjoyed. Those who needed the service
paid for it and not for the privilege to camp.




                                  23
                                                     APPENDIX 5
                                                     Page 5 of 6



We hope these changes can be made in the final report. Please
contact Chief of Interpretation, Larry Frederick if you have
questions (801-259-3911, x 2140).
/signed/
Walter D. Dabney




                             24
                                                              APPENDIX 5
                                                              Page 6 of 6


September 28, 1995



MEMORANDUM
To              ..   WASO RAD Special Park Use Coordinator
From            ..   Assistant Chief Ranger, Special Park Uses, Lake Mead
                     National Recreation Area
S u b j e c t   :    Comments on OIG Audit Report


The following are comments from Lake Mead National Recreation Area
on the OIG Audit Report.
Page 10 paragraph 2.
     Lake Mead's cabinsite leases are not a leaseback program. The
     lease program does not meet the definition contained in the
     footnote on page 1.    The program was originated under the
     authority of the US Bureau of Reclamation when it had
     jurisdiction over the lands and was continued by the Lake Mead
     Act (enableing legislation).
       Lake Mead issued a contract prospectus to obtain the necessary
       appraisals prior to the expiration of the leases. No bidder
       responses were received.    The prospectus is currently being
       readvertised at this time and will be kept updated to allow
       the anticipated increase to occur on renewal.
Page 20 paragraph 2
     Of the $82,375 in revenue Lake Mead collected in 1994 $80,320
     was from the cabin site lease program. Expendature of those
     funds was not allowed until 1995 when the Regional Office
     authorized use of the fees.
       The remaining $2,055.00 revenue from Special Park Use permits
       was identified as funds which could be carried over according
       to directions received from WASO and WRO. The decision was
       made to allow this funding to accumulate until enough was
       available to fund significant equipment and or personal
       service costs related to the SPU program.




David E. Hoover


                                     25
                                                             APPENDIX 6

        STATUS OF AUDIT REPORT RECOMMENDATION


Finding/Recommendation
       Reference           Status                 Action Required

          1              Resolved; not   No further response to the Office
                         implemented.    of Inspector General is required.
                                         The recommendation will be
                                         referred to the Assistant Secretary
                                         for Policy, Management and Budget
                                         for tracking of implementation.




                                    26
                 ILLEGAL OR WASTEFUL ACTIVITIES
                     S H O U L D BE REPORTED TO
            THE OFFICE OF INSPECTOR GENERAL BY:



Sending written documents to:                               Calling:


                     Within the Continental United States




                                                      TDD for the hearing impaired
                                                      (703) 235-9403 or
                                                      1-800-354-0996


                    Outside the Continental United States

                                    Caribbean Area


U.S. Department of the Interior                       (809) 774-8300
Office of Inspector General
Caribbean Region
Federal Building & Courthouse
Veterans Drive, Room 207
St. Thomas, Virgin Islands 00802


                               North Pacific Region

U.S. Department of the Interior                       (700) 550-7279 or
Office of Inspector General                           COMM 9-011-671-472-7279
North Pacific Region
238 Archbishop F.C. Flores Street
Suite 807, PDN Building
Agana, Guam 96910
